ES, IG-99-015, Home-to-Work Use of Vehicles
HOME-TO-WORK USE OF VEHICLES
IG-99-015
Executive Summary
Background
NASA Centers maintain fleets of general-purpose vehicles to meet basic
transportation needs for NASA and contractor personnel.(1)  Federal law and
regulations restrict use of Government vehicles to the conduct of official
business and provide guidance on the appropriate use of vehicles.  Currently,
Federal law and regulations generally prohibit home-to-work use of
Government vehicles.  However, some limited exceptions to the general
prohibition are permitted with the approval of the Agency head.  The Centers
have established local policies or practices that supplement Agency guidance
on the use of vehicles.
Objectives
The overall objective of the audit was to evaluate the effectiveness of
NASA's Government vehicle program.  Specifically, we determined whether
four NASA Centers(2) complied with the law and regulations governing
home-to-work use of Government vehicles.  Additional information on the
objectives, scope, and methodology is in Appendix A.
Results of Audit
All four Centers had instances of improperly authorized home-to-work use of
Government vehicles.  We found no indication of fraud, waste, or abuse in
the approvals granted; the officials who made the determinations did so
based on faulty policies that did not ensure the required approvals were
obtained.  As a result, Agency use of Government vehicles has not complied
with Federal law and regulations that limit home-to-work vehicle use.
The General Services Administration (GSA) is proposing an amendment to
the statutory requirements governing home-to-work use of Government
vehicles.  The amendment would permit delegations of approval for
home-to-work vehicle use below the level of agency head so that
determinations could more readily be made when such vehicle usage is in the
best interest of the Government.
During the audit, we issued an overall related report on the Centers'
vehicle acquisition and use, a report to MSFC, and a management letter to
GSFC (see Appendix B).
Recommendations
We recommended that NASA support GSA's efforts to amend the law governing
home-to-work use of vehicles and that the Centers revise policies and
establish procedures to ensure compliance with Federal law and regulations.
Management's Response
Management concurred with all recommendations and will take actions to
support GSA's efforts and to ensure compliance with the law and regulations
governing home-to-work use of Government vehicles.
FOOTNOTES
1. Based on a review at the Goldstone Deep Space Communications Complex, the Assistant Inspector General for Inspections, Administrative Investigations, and Assessments, is preparing a report specifically on contractor home-to-work use of Government vehicles.
2. Glenn Research Center (GRC), Goddard Space Flight Center (GSFC), Kennedy Space Center (KSC), and Marshall Space Flight Center (MSFC).